CERTIFICATE OF COMPLIANCE
No.
Yoel Weisshaus,
Petitioner,
vs
Port Authority of New York and New Jersey,
Respondent.
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 5,433 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 25, 20201
Joef Weisshaus

PAUL HUEBNEFT
Notary Public, State of New YorX
Registration #02HU6157168
Qualified in Kings County
Commission Expires December 4.2Q22

